                                                                               Issue Date
                                                                                       March 1, 2012
                                                                                
                                                                               Audit Report Number
                                                                                       2012-CH-1005




TO:            Jon L. Gant, Director of Healthy Homes and Lead Hazard Control, L



FROM:          Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: The State of Wisconsin’s Department of Commerce Needs To Improve Its
           Oversight of Its Lead-Based Paint Hazard Control Recovery Act Grant

                                            HIGHLIGHTS

    What We Audited and Why

                 We audited the State of Wisconsin’s Department of Commerce’s1 Lead-Based
                 Paint Hazard Control program under the American Recovery and Reinvestment
                 Act of 2009. The audit was part of the activities in our fiscal year 2011 annual
                 audit plan. We selected the State for review based on a citizen’s complaint
                 forwarded to our office from the U.S. Department of Commerce’s Office of
                 Inspector General (OIG). Our objective was to determine whether the State
                 ensured that its subrecipients (1) awarded Recovery Act grant funds to eligible
                 property owners and (2) complied with the U.S. Department of Housing and
                 Urban Development’s (HUD) and its own requirements.

    What We Found

                 The State did not always ensure that its subrecipients awarded Recovery Act grant
                 funds to eligible property owners and complied with HUD’s and its own

1
 The State of Wisconsin’s Department of Commerce’s functions were transferred to the State of Wisconsin’s
Department of Administration’s Division of Housing in July 2011; therefore, the recommendations will be
addressed to the Division of Housing. The audit report represents the activities of the State of Wisconsin’s
Department of Commerce.
           requirements. Specifically, it did not ensure that its subrecipients (1) awarded
           grant funds to property owners that were current with their property taxes, (2)
           ensured that property owners gave priority to families with a child under 6 years
           of age in the rental of housing units, (3) maintained sufficient or complete
           documentation to support that they performed independent price estimates before
           receiving bids for construction services, or (4) maintained sufficient
           documentation to support that six households were income eligible to receive
           grant funds. As a result, a State subrecipient inappropriately awarded $53,919 in
           grant funds to property owners that were not eligible to receive grant funds, and
           HUD and the State lacked assurance that families with a child under 6 years of
           age had priority in the rental of housing units that received Federal assistance.

           The complainant’s allegations regarding the State’s Lead-Based Paint Hazard
           Control program, in particular the procurement of contracts for risk assessment
           services, were not substantiated by the results of this audit.


What We Recommend

           We recommend that the Director of HUD’s Office of Healthy Homes and Lead
           Hazard Control require the State to (1) reimburse its program $53,919 from non-
           Federal funds for the grant funds awarded and expended to assist the two
           ineligible property owners, (2) amend its implementation manual in accordance
           with its work plan to include the requirement that property owners’ property taxes
           be current, and (3) establish procedures and controls to ensure that property
           owners give priority in renting housing units for not less than 3 years following
           the completion of lead abatement activities to families with a child under 6 years
           of age.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Office of Healthy Homes and Lead Hazard Control and the State during
           the audit. We also provided our discussion draft audit report to the State and
           HUD’s staff during the audit. We held an exit conference with the State on
           January 30, 2012.

           We asked the State’s program manager to provide written comments on our
           discussion draft audit report by February 6, 2012. The State’s program manager
           provided written comments, dated February 6, 2012. The program manager partially


                                            2
agreed with our findings and recommendations. The complete text of the written
comments, except for the 14 pages of supporting documentation that were not
necessary for understanding the program manager’s comments, along with our
evaluation of that response, can be found in appendix B of this report.




                                3
                            TABLE OF CONTENTS

Background and Objective                                                               5

Results of Audit
      Finding: The State Did Not Always Ensure That Its Subrecipients Complied With
                Recovery Act, HUD’s, and Its Own Requirements                         7


Scope and Methodology                                                                 11

Internal Controls                                                                     12

Appendixes
   A. Schedule of Questioned Costs                                                    14
   B. Auditee Comments and OIG’s Evaluation                                           15
   C. Federal Requirements and the State’s Work Plan                                  20




                                             4
                           BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development’s (HUD) Office of Healthy Homes
and Lead Hazard Control was established in 1991 to eliminate lead-based paint hazards in
America’s privately owned and low-income housing. The purpose of the Lead-Based Paint
Hazard Control grant program is to identify and control lead-based paint hazards in eligible
privately owned housing for rental or owner-occupants.

The American Recovery and Reinvestment Act was signed into law on February 17, 2009. The
Recovery Act is an effort to jumpstart the economy, create or save jobs, and address neglected
challenges. It includes measures to modernize the Nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in great need.

The Recovery Act provided $100 million to Healthy Homes to provide funds to State and local
governments and academic and not-for-profit firms to develop cost-effective ways to reduce
lead-based paint hazards and other health hazards in the home environment that produce serious
diseases and injuries in children. Healthy Homes awarded nearly $78 million in Recovery Act
funds to 30 grantees in the form of Lead-Based Paint Hazard Control grants.

Healthy Homes awarded the State of Wisconsin’s Department of Commerce a $3 million Lead-
Based Paint Hazard Control Recovery Act grant in April 2009. According to the Recovery Act,
the State was required to expend 50 percent of the funds within 2 years and fully expend the
funds within 3 years. The State planned to allocate $2.8 million in Recovery Act grant funds to
its 17 subrecipients2 and the remaining $200,000 for administrative expenses.

As of November 2011, more than $2.6 million of the $2.8 million in grant funds had been
awarded to the State’s 17 subrecipients. The State’s subrecipients awarded the grant funds to
127 property owners to assist with the reduction of lead-based paint hazards in their properties.
The table below illustrates how the grant funds were allocated among the subrecipients.




2
  Subrecipients consist of local units of government, Community Development Block Grant grantees and
entitlements, and HOME Investment Partnerships Program subrecipients. The subrecipients are responsible for
reviewing applications, selecting eligible properties and households, procurement of risk assessment and
construction services, and securing the assistance with the property owners in the form of forgivable mortgages.
The State provides training and guidance and conducts monitoring reviews to ensure that the subrecipients meet
HUD and Recovery Act requirements.

                                                         5
                                                                                     Number of
                                                                    Amount           properties
                                 Subrecipients                      awarded           assisted
                   City of Appleton                                  $360,000           29
                   Chippewa County Housing Authority                  264,000           19
                   City of La Crosse                                  165,000            6
                   City of Ashland                                    170,684            6
                   Central Wisconsin Community Action
                   Agency                                                84,000            2
                   Clark County Housing Authority                       120,000            6
                   Couleecap, Inc.                                      471,960           23
                   Neighborhood Housing Services of
                   Richland County                                       72,000           5
                   Options for Independent Living, Inc.                  40,624           2
                   Ozaukee County Public Health
                   Department                                            33,560           2
                   Partners for Community
                   Development, Inc.                                    100,000           5
                   Project Home, Inc.                                   120,000           3
                   Racine-Kenosha Community Action
                   Agency                                              119,300            7
                   Southwestern Wisconsin CAP, Inc.                     68,793            1
                   Waukesha County                                     295,000            3
                   West Central Wisconsin CAP, Inc.                     50,063            2
                   City of Waukesha                                    155,000            6
                                   Totals                          $2,689,9843           127

We selected the State for review based on a citizen’s complaint forwarded to our office from the
U.S. Department of Commerce’s Office of Inspector General (OIG). The complaint alleged
unfair procurement practices with regard to the State’s Lead-Based Paint Hazard Control
program, in particular the procurement of its contracts for risk assessment services. Based on
our review of the State’s procurement of its risk assessment services contracts, the complainant’s
allegations were unsubstantiated.

Our objective was to determine whether the State ensured that its subrecipients (1) awarded
Recovery Act grant funds to eligible property owners and (2) complied with HUD’s and its own
requirements.




3
    The State had not awarded the remaining $110,016 in available funds to a subrecipient as of November 2011.

                                                          6
                                 RESULTS OF AUDIT

Finding: The State Did Not Always Ensure That Its Subrecipients
Complied With Recovery Act, HUD’s, and Its Own Requirements
The State did not always ensure that its subrecipients complied with Recovery Act, HUD’s, and
its own requirements. Specifically, it did not ensure that its subrecipients (1) awarded grant
funds to property owners that were current with their property taxes, (2) ensured that property
owners gave priority to families with a child under 6 years of age in the rental of housing units,
(3) maintained sufficient or complete documentation to support that they performed independent
price estimates before receiving bids for construction services, or (4) maintained sufficient
documentation to support that six households were income eligible to receive grant funds. The
problems occurred because the State’s procedures and controls to ensure that its subrecipients
awarded funds to eligible property owners had weaknesses. Further, its monitoring and
oversight of its subrecipients were insufficient to ensure compliance with Recovery Act, HUD’s,
and its own requirements. As a result, a State subrecipient inappropriately awarded $53,919 in
grant funds to property owners that were not eligible to receive grant funds, and HUD and the
State lacked assurance that families with a child under 6 years of age had priority in the rental of
housing units that received Federal assistance.



 A State Subrecipient Awarded
 Grant Funds to Property
 Owners That Were Not Eligible

              The City of Waukesha, a State subrecipient, awarded grant funds to property
              owners that were not eligible to receive assistance. In January 2011, two property
              owners submitted applications to the City of Waukesha requesting financial
              assistance under the State’s Recovery Act grant. However, both property owners’
              2008 property taxes were delinquent at the time they applied for assistance. The
              City awarded a total of $53,919 in grant funds to the two property owners.
              According to the State’s work plan, property taxes on the assisted unit(s) must be
              current, or if there are arrearages, an agreement for repayment must be in place
              with the county treasurer’s office (see appendix C).

              The County of Waukesha treasurer’s property tax records indicated that the
              property owners owed $5,264 and $3,437 in delinquent property taxes,
              respectively, and were still delinquent as of January 10, 2012. According to a
              county clerk, if the property owners do not pay their delinquent property tax
              liability by July 2012, the County of Waukesha treasurer’s office will initiate
              foreclosure action on the two properties.




                                                 7
           The City of Waukesha’s housing rehabilitation specialist said that he was not
           aware of the State’s work plan requirement. Therefore, he did not check the
           property tax status of the two assisted properties before awarding the grant funds to
           the property owners. Additionally, the State’s implementation manual did not
           indicate that assisted property owners’ property taxes must be current. According
           to the State’s program manager, since being current on the property taxes was not a
           HUD requirement and grant funds were used to clear lead hazards from the two
           properties, the two properties were eligible to receive assistance.

           As a result of our audit, the property owners paid the delinquent property taxes on
           January 26 and January 31, 2012, respectively.

A State Subrecipient Was
Unable To Document That
Priority Was Given To Families
With A Child Under 6 Years of
Age

           The City of Appleton, a State subrecipient, awarded $21,806 in Recovery Act
           grant funds to a property owner to provide assistance for two housing units in a
           three-unit rental property. The construction work on the two housing units was
           completed in January 2010; however, the housing units were occupied in January
           and June 2010, respectively, by households with no children. The property owner
           signed a certification indicating that the property owner agreed to give priority to
           families with children under 6 years of age for the first 3 years following the
           completion of the lead abatement work. However, the owner could not provide
           documentation to show that priority was given to families with children under 6
           years of age for the two assisted units. According to section III(C)(4) of HUD’s
           2008 Notice of Funding Availability for the Lead-Based Paint Hazard Control
           grant program, property owners must give priority to families with a child under
           the age of 6 years for not less than 3 years following the completion of lead
           abatement activities (see appendix C).

           The State’s program manager and the previously mentioned subrecipient
           indicated that property owners were provided verbal instructions on how to give
           priority in renting their assisted housing units to families with children under 6
           years of age. For example, the property owners were instructed to contact the
           local housing authorities for referrals or place advertisements on a Wisconsin
           community service Web site. However, neither the State nor the subrecipient had
           written policies or procedures for ensuring that the property owners met this
           requirement. Further, two property owners that received assistance from another
           two of the State’s subrecipients, the Clark County Housing Authority and
           Neighborhood Housing Services of Richland County, acknowledged that they
           were either not aware that priority in renting the assisted housing units had to be
           given to families with a child under 6 years of age or thought that priority had to


                                              8
            be given for some but not all of their assisted housing units. These two
            subrecipients awarded the grant funds to the property owners; however, the
            construction work had yet to be completed for one property, and the housing units
            for the other property were vacant as of November 2011.

State Subrecipients Did Not
Always Maintain Adequate
Procurement or Household
Eligibility Documentation

            The State did not ensure that its subrecipients maintained adequate documentation
            to support its procurement activities or that assisted households were income
            eligible to receive assistance. Four of the State’s subrecipients, the City of
            Ashland, the City of Appleton, Neighborhood Housing Services of Richland
            County, and Southwestern Wisconsin CAP, Inc., were unable to provide
            documentation to support that they performed independent costs estimates before
            receiving bids for construction services for 10 assisted properties, collectively.
            As a result of our audit, the subrecipients performed the independent cost
            estimates after the contracts were awarded to support that the costs of the
            construction contracts for the 10 assisted properties were reasonable.

            Three subrecipients, the City of Ashland, the City of Appleton, and the
            Neighborhood Housing Services of Richland County, initially were unable to
            provide adequate documentation to support that four property owners’ assisted
            housing units were occupied by tenants who were income eligible. As a result of
            our audit, the subrecipients obtained the required documentation to support that
            the households were income eligible.

The State Needs To Improve Its
Procedures and Controls

            The problems described above occurred because the State’s procedures and
            controls to ensure that its subrecipients awarded funds to eligible property owners
            had weaknesses. Further, its monitoring and oversight of its subrecipients was
            insufficient to ensure compliance with Recovery Act, HUD’s, and its own
            requirements. The State conducted a training seminar to inform the subrecipients
            of the Recovery Act grant requirements before the grants were awarded. It also
            distributed an implementation manual to the subrecipients; however, the manual
            did not contain the State’s requirement that property owners’ property taxes be
            current. It also did not provide guidance on how to implement the requirement
            that rental property owners give priority to families with a child under the age of 6
            years for not less than 3 years following the completion of lead abatement
            activities.



                                              9
             According to the State’s program manager, a checklist was used when performing
             monitoring reviews of its subrecipients. However, the checklist did not include a
             review of the status of a property owner’s property taxes and whether property
             owners gave priority to families with a child under 6 years of age.

Conclusion


             The State did not always ensure that its subrecipients complied with Recovery
             Act, HUD’s, and its own requirements. The problems occurred because the
             State’s procedures and controls to ensure that its subrecipients awarded funds to
             eligible property owners had weaknesses. Further, its monitoring and oversight of
             its subrecipients was insufficient to ensure compliance with program
             requirements. As a result, a State subrecipient inappropriately awarded $53,919
             in grant funds to property owners that were not eligible to receive grant funds.
             Further, HUD and the State lacked assurance that families with a child under 6
             years of age had priority in the rental of housing units that received Federal
             assistance.

Recommendations


             We recommend that the Director of HUD’s Office of Healthy Homes and Lead
             Hazard Control require the State of Wisconsin’s Department of Administration’s
             Division of Housing to

             1A.    Reimburse its program $53,919 from non-Federal funds for the grant
                    funds awarded and expended to assist the two ineligible property owners.

             1B.    Amend its implementation manual in accordance with its work plan to
                    include the requirement that property owners’ property taxes be current.

             1C.    Establish and implement procedures and controls to ensure that property
                    owners give priority in renting housing units for not less than 3 years
                    following the completion of lead abatement activities to families with a
                    child under 6 years of age.




                                             10
                               SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

          Applicable laws; regulations; the State’s work plan and implementation manual; HUD’s
           requirements at 24 CFR (Code of Federal Regulations) Parts 5, 35, and 85; HUD’s Fiscal
           Year 2008 Notice of Funding Availability; the Residential Lead-Based Paint Hazard
           Reduction Act of 1992; the Recovery Act; and the State’s grant agreement with HUD.

          The State’s and subrecipients’ financial records, assisted household and property files, and
           procurement files.

          HUD’s monitoring review of the State.

We also interviewed the State’s and the subrecipients’ employees and HUD staff, property
owners and households, and contractors.

Finding

We randomly selected 9 of the State’s 17 subrecipients. Of the 9 subrecipients, we reviewed
property files for 23 of the 95 properties that had been provided financial assistance as of April
2011.4 The subrecipients awarded $743,980 in Recovery Act grant funds to the 23 assisted
properties.

We used the State’s financial electronic records to determine that 95 properties had been
provided financial assistance as of April 2011. Although we did not perform a detailed
assessment of the reliability of that data, we performed a minimal level of testing and found the
data to be adequately reliable for our purposes. To support the audit findings and conclusions,
we relied on hardcopy documentation maintained in the State’s subrecipients’ files.

We performed our onsite audit work between April and July 2011 at the State’s central office
located at 201 West Washington Avenue, Madison, WI, and the subrecipients’ offices located at
various locations throughout Wisconsin. The audit covered the period April 14, 2009, through
January 31, 2011, but was expanded when necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusion based on our audit objective.



4
    The number of properties that received assistance had increased to 127 as of November 2011.


                                                         11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to


      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:


                     Effectiveness and efficiency of operations - Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting - Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations - Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness and efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws or regulations on a
               timely basis.

                                                 12
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                 The State lacked adequate procedures and controls to ensure that its
                  subrecipients complied with Recovery Act, State, and Federal requirements
                  regarding awarding Recovery Act grant funds (see finding).




                                             13
                                  APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

                           Recommendation
                               number             Ineligible 1/
                                  1A               $53,919

                                Totals             $53,919


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowed by law; contract; or Federal, State, or local
     policies or regulations.




                                           14
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation                        Auditee Comments




               February 6, 2012



               Anthony Smith
               Assistant Regional Inspector General for Audit
               U.S. Department of Housing and Urban Development
               Office of Inspector General
               477 Michigan Avenue, Room 1780
               Detroit, MI 48226

               Dear Mr. Smith:

               Thank you for the opportunity to respond to the draft audit document on January
               19, 2012. We appreciate the cooperation and commitment of the individuals who
               visited our State office, as well as our subgrantees, while performing the audit.

               The State of Wisconsin’s Lead Hazard Control Grant application was submitted
               for funding through the 2008 NOFA but was not approved. The application was
               subsequently funded through the American Recovery and Reinvestment Act
               (ARRA) in 2009. The contract for the program was signed in April 2009.

               As noted in the draft Audit, the audit was initiated on March 2, 2011, as the result
               of a citizen complaint alleging unfair procurement practices with regard to the
               procurement of contracts for risk assessment services. That complaint was found
               to be without merit.

               The draft audit contains three recommendations to HUD’s Office of Healthy
               Homes and Lead Hazard Control. The Division of Housing would like to take
               this opportunity to address each of those recommendations.

                1A. Reimburse its program $53,919 from non-Federal funds for the grant funds
               awarded and expended to assist the two ineligible property owners.

Comment 1      The Division disagrees with the statement in the recommendation that these two
               households were ineligible and, therefore, funds should be repaid. The
               households residing in the two City of Waukesha assisted units in question:



                                                15
                   Are income eligible (household income <80 percent of county median
                    income);
                   Hold title to the property and occupy it as their primary residence;
                   Have children under 6 in the household;
                   The properties were identified as containing lead hazards as a result of
                    Risk Assessment.

            The intent of the Lead-Based Paint Hazard Control Grant Program is to identify
            and control lead-based paint hazards in eligible privately owned rental or owner-
            occupied property. The 2008 NOFA defined eligible owner-occupied housing as
            being the principal residence of families with income at or below 80 percent of
            the area median income level, occupied by a child under the age of six years or
            where a child under the age of six years spends a significant amount of time
            visiting.

            In the case of the Cook Street property, the outstanding 2008 taxes were the
            responsibility of the previous owner. The current owners have paid their
            property taxes (2009 and 2010) since taking ownership of the property. The
            program administrator has information showing payment of those taxes on
            December 29, 2009, and December 27, 2010. Both receipts indicate there is no
            tax remaining (See attachments).

            The homeowners of the Harrison Avenue property show a similar record of tax
            payment. Records from the County Treasurer’s office indicate that the 2009
            taxes were billed on December 15, 2009, and paid in full on December 29, 2009.
            The 2010 taxes were billed December 01, 2010, and paid on December 27, 2010.
            The record also shows payment in full of 2011 taxes on December 28, 2011. The
            homeowner indicated they would pay the 2008 outstanding taxes and worked
            with their mortgage lender to make the payment. The record indicates that debt
            was paid on January 31, 2012 (See attachments).

            The program Work Plan indicates that property taxes must be current or, if there
            are arrearages, an agreement for repayment must be in place with the County
            Treasurer’s Office. In both cases cited, the property owners two most recent
            years property taxes were current. Neither the HUD Program requirements nor
            the Work Plan indicate that an investigation of property tax payments must go
Comment 2
            back beyond the most recent year.

            The resolution proposed is to include language regarding property taxes in the
            Implementation Manual (see 1B following). The Division concurs with the draft
            audit statement that the LHC program Implementation Manual did not contain
            specific information regarding the status of property taxes, and concurs with the
            recommendation to change the Manual. However, even if the Implementation
            Manual had contained the 1B recommended language, a reference specific to




                                            16
            checking property taxes for the most recent year would not have yielded
            information to support the 1A recommendation, because a check to ensure that
            property owners’ property taxes are current would have showed taxes paid timely
            with “no outstanding balance.”


            1B. Amend its implementation manual in accordance with its work plan to
            include the requirement that property owners’ property taxes be current.

            The Division concurs with the recommendation. The LHC Implementation
Comment 3   Manual will be revised to add a statement on page I-5, Housing Assistance
            Applications, Financial Information: Verify status property taxes. Property
            taxes must be current or property owners must have a plan in place to bring taxes
            current.


            1C. Establish procedures and controls to ensure that property owners give
            priority in renting housing units for not less than 3 years following the
            completion of lead abatement activities to families with a child under 6 years of
            age.

            The Division concurs with the recommendation that additional procedures be
            added to the Implementation Manual regarding rental compliance. The State’s
            Work Plan and HUD’s Program requirements both reference landlord’s giving
            priority in renting units for not less than 3 years following the completion of lead
            activities to families with a child under the age of six years. All subgrantees were
            provided implementation training at the beginning of their contracts where the
            Implementation Manual was reviewed. The LHC Implementation Manual does
            state that subgrantees are responsible for reporting information on households
            assisted and states that landlords must agree to give priority in renting to
            households with children under 6 for three years. The landlords are verbally
            informed of the requirement by subgrantees and sign a statement to the effect that
            they will comply. HUD program requirements provide no direction specific to
            the timing of verifying compliance when assisted units are vacant.

            The units discussed as having inadequate documentation on tenants were vacant
            at the time lead hazard reduction work was undertaken. The landlords did rent to
            income eligible tenants and subgrantees did obtain the supporting documentation.
            Subgrantees establish a schedule for annual compliance checks with an




                                             17
            expectation that landlords will retain information on rent-up in their files. That
            expectation was met; landlords provided information upon request.

            To meet the requirement of this recommendation, a checklist will be added to the
Comment 4   initial compliance statement the landlord signs. The checklist will be turned in to
            the subgrantee at the time of unit rent-up. (See attachment.) Subgrantees will be
            instructed to contact landlords quarterly for updates on vacant units to ensure
            information is obtained in a timely manner.

            The LHC Implementation Manual will be revised to add information on page I-3,
            Rental loans: Landlords must agree to give priority in renting to households
            with children under 6 years of age for three years following the completion of the
            LHC assistance (Attachment 8 Landlord Commitment). Landlords must provide
            the Grantee with documentation of compliance; submission of the completed
            Checklist attached to the Landlord Commitment is acceptable.
            When vacant units are assisted, Grantee will follow-up with Landlord on a
            quarterly basis until units have been rented and annually thereafter for three
            years to ensure priority in renting to households with children under 6 years of
            age.

            Once again the Division of Housing is grateful for the opportunity to respond to
            the draft report. We believe that the measures listed under each recommendation
            should be sufficient to resolve the OIG’s concerns.

            Sincerely,

            Betty Kalscheur
            Program Manager
            Wisconsin Lead Hazard Control Program

            cc:     Lisa Marks, Administrator, Division of Housing
                    Marty Evanson, Bureau Director, Division of Housing
                    Rogelio Martinez, HUD-OIG/Audit

            Attachments




                                               18
                         OIG Evaluation of Auditee Comments

Comment 1   We do not agree. After reviewing the documentation provided, we acknowledge
            that as a result of our audit, the delinquent tax amounts have been paid. But, at
            the time of the application process, both property owners were delinquent in their
            property taxes. This would make the properties ineligible for assistance in
            accordance with the State’s work plan and deemed the $53,919 an ineligible
            expense.

Comment 2   We do not agree. As indicated in the State’s response, the work plan indicates
            that property taxes for assisted properties must be current or, if there are
            arrearages, an agreement for repayment must be in place with the County
            Treasurer’s Office. However, the work plan does not state that property taxes
            must only be current for the two most recent years.

Comment 3   The State did not provide a copy of the updated Implementation Manual.
            Therefore, we did not change our recommendation for HUD to require the State to
            amend its implementation manual in accordance with its work plan to include the
            requirement that property owners’ property taxes be current.

Comment 4   We reviewed the checklist, provided by the State with its comments to the
            discussion draft audit report. The checklist requires property owners to certify
            their method(s) of advertisement used to market the assisted unit(s) to families
            with children less than 6 years of age. It also requires property owners to provide
            proof of the method of advertisement. We commend the State for initiating
            corrective action; however, until this process is fully implemented, the
            recommendation in the audit report will remain.




                                             19
Appendix C

FEDERAL REQUIREMENTS AND THE STATE’S WORK PLAN

Finding
HUD’s regulations in its Fiscal Year 2008 Notice of Funding Availability (Docket no. FR-5200-
N-01 A) state that applicants should describe in their work plan policies and procedures for
procurements, unit eligibility, unit selection, and prioritization. Grantees, subcontractors,
subgrantees, subrecipients, and their contractors must follow these policies and procedures.

HUD’s regulations in its Fiscal Year 2008 Notice of Funding Availability (Docket no. FR-5200-
N-01 A) state that for grants made to assist rental housing, at least 50 percent of the units must be
occupied by or made available to families with incomes at or below 50 percent of the area
median income level; the remaining units must be occupied or made available to families with
incomes at or below 80 percent of the area median income level; and in all cases, the landlord
shall give priority in renting units assisted under this section, for not less than 3 years following
the completion of lead abatement activities, to families with a child under the age of 6 years.

The State’s grant agreement, section 1, states that the provisions of the notice of funding
availability are hereby incorporated into the grant agreement.

Section 2 of the grant agreement states that the State will be responsible for the monitoring and
management of all subrecipient awards. Management and reporting requirements applied to
direct recipients tier down to employees, affiliates, subrecipients, and subcontractors, and
awardees will be responsible for ensuring compliance and submitting required reports to HUD.
Also, for State and local governments, awards will be governed by 24 CFR Part 85.

HUD’s regulations at 24 CFR 85.36(f) states that grantees and subgrantees must perform a cost
or price analysis in connection with every procurement action including contract modifications.
The method and degree of analysis is dependent on the facts surrounding the particular
procurement situation, but as a starting point, grantees must make independent estimates before
receiving bids or proposals.

HUD’s regulations at 24 CFR 85.40(a) state that grantees are responsible for managing the day-
to-day operations of grant- and subgrant-supported activities. Grantees must monitor grant- and
subgrant-supported activities to ensure compliance with applicable Federal requirements and that
performance goals are achieved. Grantee monitoring must cover each program, function, or
activity.

The State’s work plan, Identification and Selection of Properties, states that assisted property
owners must meet the following stipulation: Property taxes on the assisted unit(s) must be
current, or if there are arrearages, an agreement for repayment must be in place with the county
treasurer’s office. The assistance will be secured by a lien against the assisted property due upon
transfer of property or forgiven overtime.

                                                 20
